Supreme Court
STATE OF ARIZONA
ROBERT BRUTINEL
Chief Justice

ARIZONA STATE COURTS BUILDING
1501 WEST WASHINGTON STREET, SUITE 402
PHOENIX, ARIZONA 85007
TELEPHONE: (602) 452-3396

JANET JOHNSON
Clerk of the Court

February 2, 2021
RE:

STATE OF ARIZONA v CODY JAMES MARTINEZ
Arizona Supreme Court No. CR-20-0104-PC
Pima County Superior Court No. CR20031993

GREETINGS:
The following action was taken by the Supreme Court of the State
of Arizona on February 2, 2021, in regard to the abovereferenced cause:
ORDERED: Petition for Review from Partial Denial of Rule 32
Petition for Postconviction Relief = DENIED.
Justice Lopez did not participate in the determination of this
matter.
Janet Johnson, Clerk
TO:
S Jonathan Young
Erin Carrillo
Cody James Martinez, ADOC 151281, Arizona State Prison, Florence
- Central Unit
Lacey Stover Gard
Dale A Baich
Amy Armstrong
Timothy R Geiger
Mark Brnovich
ga

Appendix 1

ARIZONA SUPERIORCOURT, PIMA COUNT)20

HAR
-4 AH8=32
CASE NO.

HON. HOWARD FELL

Ir~~. ST.fla-:PtM~!Nft~~J.1:

CR2003l 993-003
March 03, 2020

STATE OF ARIZO~A
Respondent,
vs.
CODY JAMES MARTINEZ
Petitioner.

RULING
CRIMINALRULING
On November 9, 2005, following a jury trial, Cody James Martinez, the Petitioner, was found guilty of
first-degreemurder and kidnapping. The jury found two aggravating factors, did not find mitigation
sufficientlysubstantialto warrant leniency, and sentenced Martinez to death. The Arizona Supreme Court
affirmed Martinez's convictions and death sentence on direct appeal. Martinez subsequently filed a Petition for
Post-Convictionrelief alleging ineffective assistance of counsel at virtually every stage of trial.
In January 2015, in reference to Martinez's post-conviction relief claims, this Court ordered an
evidentiaryhearing and granted limited relief. This Court found trial counsel ineffective for purposes of the
penalty phase of the trial and, as such, vacated the death penalty. In the same ruling, this Court found the other
claims raised by Martinez in his original Petition for Post-Conviction Relief precluded. In a subsequent order,
the Arizona Supreme Court directed this Court to rule on these previously precluded claims on their merits.
Thi_sCourt is very familiar with the facts of this case. This Court presided over trial, the penalty phase,
aggravationphase, and a lengthy evidentiary hearing related to the first Rule 32. This Court has reviewed the
pleadings and exhibits submitted by the parties, as well as the records and transcripts from this case and finds
that in this the matter record is sufficient for this court to dispose of the petition without an evidentiary hearing.
See State v. Bell, 23 Ariz.App. 169,531 P.2d 545 (App. 1975).
Ineffective Assistance of Counsel Claims

An allegation of ineffective assistance of counsel is encompassed within Rule 32.l(a) as a claim that a

defendant's "conviction or ... sentence was in violation of the Constitution of the United States or the State of
Arizona." Statev. Herrera, 183 Ariz. 642, 646, 905 P.2d 1377, 1381 (App. 1995); see also UnitedStates v.
Pearce,-992F.2d 1021, 1023 (9th Cir.1993). The defendant holds the burden of proving ineffective assistance
of counsel. State v. Meeker, 143 Ariz. 256,264,693 P.2d 911,919 (1984).

Appendix 2

R. Alex Coomer
Law Clerk

RULING
Page 2

Date: March 03, 2020

Case No.: CR20031993-003

In order for a defendantto raise a colorableineffectiveassistance of counsel claim, he must fulfill a twoprong test. Stricklandv. Washington, 466 U.S. 668,687 (1984); State v. Jackson, 209 Ariz. 13, ,r2, 97 P.3d 113,
114 (2005);State v. Nash, 143 Ariz. 392, 397, 694 P.2d 222,227 (1985). Failure to prove either one of the
prongs renders the claim insufficient.State v. Salazar, 146 Ariz. 540, 541 (1985).
First, a defendantmust show his counsel's performancefell below objectivelyreasonable standards of
representationmeasuredby prevailing professionalnorms. Strickland, 466 U.S. at 688. Trial counsel is
presumedto have acted properly unless the defendantcan show "counsel's decision was not a tactical one, but,
rather, revealed ineptitude,inexperience,or lack of preparation."State v. Goswick, 142 Ariz. 582, 586 (1984).
In consideringcounsel's performance,the reviewingcourt will not question counsel's trial strategy unless it
lacks "some reasoned basis." State v. Gerlaugh, 144 Ariz. 449, 445, 698 P.2d 694, 700 (1985).
Second,a defendantmust demonstratecounsel's poor performance prejudiced him. Strickland, 466 U.S.
at 692. To establishprejudice, a defendant must "show that there is a reasonable probability that, but for
counsel's unprofessionalerrors, the result of the proceedingwould have been different." State v. Kolmann, 239
Ariz. 157,,r9,367 P.3d 61, 64 (2016) (quotingStrickland 466 U.S. at 694). "When a defendant challenges a
conviction,the question is whether there is a reasonableprobabilitythat, absent the errors, the factfinder would
have had a reasonabledoubt respecting guilt." Id., 367 P.3d at 64 (quoting Strickland, 466 U.S. at 695).
A defendantis not required to provide the court with detailed evidence in his petition. State v. Donald,
198Ariz. 406, ,r17, 10 P.3d 1193, 1200 (2000). However, he must "provide specific factual allegations that, if
true, would entitle him to relief." Id., 10 P.3d at 1200. "[P]roof of ineffectivenessmust be a demonstrablereality
and not merely a matter of speculation."State v. Schultz, 140Ariz. 222,225, 681 P.2d 374, 377 (1984). If a
defendantfails to sufficientlyestablish either element, the reviewing court is not required to determine whether
the other elementhas been established.Jackson, 209 Ariz. at 14, ,r2, 97 P.3d at 114.
This Rule 32 petition first contendsthat due to trial counsel's limited time spent with Martinez prior to
trial (approximatelyone hour and eight minutes),he was woefully under-preparedto effectively defend
Martinezduringthe trial, the aggravationphase, and penalty phase. Specifically,Martinez argues that had trial
counsel spent more time with him, trial counsel would have: 1) realized that the killing of the victim was due to
the victim's own alleged actions of molesting a child; 2) been in a position to rebut the robbery motive for
purposesof aggravation;3) been in a better position to discuss whether Martinez should testify in the
aggravationphases of the trial; 4) been prepared to rebut the State's "Cisco's BBQ" argument for purposes of
aggravation;5) realized all of the State's witnesses were housed together, thereby giving them an opportunityto
straightentheir stories and collectively blame Martinez; 6) realized that the missed shot on the victim was
accidentaland not an intentional miss for purposes of aggravation.
Here, this Court finds that the Petitioner's argumentregarding deficient performanceby trial counsel is
not entirelybaseless. One hour and eight minutes is an unusually little amount of time to meet with a client on
a first-degreemurder case where the possibility of the death penalty is attached. Relief is not warranted here,
however,becauseMartinez cannot prove he sufferedprejudice due to the limited amount of time spent.
Martinezcan only speculatethat the outcome would have been different if trial counsel spent more time with
him.

Appendix 3

R. Alex Coomer
Law Clerk

RULING

Page 3

Date: March 03, 2020

Case No.: CR2003l 993-003

In his Petition,to help prove prejudicesuffered,Martinez cites the Pima County Superior Court trial
case of State v. Renteria (CR20100889)for the propositionthat "contributoryconduct by the victim is not only
powerfulmitigation,but can be highly exculpatoryguilt phase evidenceas well." This Court does not find
Renteria to be controllingauthorityfor this proposition,nor persuasiveauthorityhere. Additionally,comparing
and/or relyingupon the result(s) of an entirely differenttrial case versusthe present matter for purposes of ·
provingprejudicefor Rule 32 relief is too speculativefor this Court. Finally, even if a trial court case outcome
could be used as authorityto grant relief, this Court finds the facts of the Renteria case are distinguishablefrom
those of Mr. Martinez's case, and, as such, this Court does not believethe Renteria case to be relevant to the
issuespresentedhere.
As to the various issues presentedrelated to trial counsel's ineffectivenessin his lack of time spent with
Martinezand his related failure to challengethe F(S)1 and F(6)2 aggravatingfactors, discuss with Martinez ifhe
shouldtestify at his aggravationphase, the possibilitythat the co-defendantscorroboratedtheir statementsat
jail, and challengethe alleged"unintentionalflinch reaction,"these argumentsalso fail due to their speculative
nature. This Courtcannot find that had trial counselargued that because robbery was not a predicate felony for
felonymurder,or that Martinezwas not booked for robbery,to be compellingenough evidenceto rebut the
other evidencepresentedregardingthe F(S) pecuniarygain aggravatingfactor, especiallyin light of the copious
evidenceof a robberypresentedat trial. The evidencewas clear that Mr. Martinez and his accomplices
ransackedthe victim's home while he was bound and prior to killing him. Similarly,this Court does not believe
that the jury would likely have come to a differentresult on the F(6) cruelty factor, .evenif presented with
additionalmitigationor heard from Mr. Martinezthat the missed shot was an unintentionalflinch, as there was
so much overwhelmingand unchallengedevidenceof the cruelty and heinousnessof this completedoffense.
Accordingly,this claim is denied.
The secondmajor claim raised by Martinez is that trial counselwas ineffective for failing to object to
the use of an erroneouspre-1978felony murder instruction. Here, this Court cannot grant relief as the jurors in
this case unanimouslyconvictedMr. Martinezunder a premeditatedtheory, in addition to felony murder. As
the Arizona SupremeCourt explained,and this Court agrees, once the jury found Mr. Martinez guilty under a
premeditatedtheory,any potential error related_tothe felony murder is of no significanceas the result of the
proceedingwouldhave been the same had Mr. Martinezhypotheticallybeen acquitted under a felony murder
theory. "Becausefelony murder is an alternatetheory of first degree murder, this Court need not considera
challengeto the sufficiencyof the evidenceof felony murderwhen the jury also returns a separateverdict of
guilt for premeditatedmurder." State v. Martinez, 218 Ariz. 421,427, 189 P.3d 348, 354 (2008) (internal
citationsomitted).Further,even if, hypothetically,this Court did set aside the premeditatedmurder verdict,
Martinezdid not successfullyargue or present why there would have been a reasonableprobabilityof a not
guiltyverdict on the felonymurder side, if the jury was correctlyinstructedon felony murder. Therefore,this
claim is denied.
The third claim presented is trial counsel was ineffectivefor overlookingand failingto raise an
adequateprovocationdefense in the guilt phase of trial. The argumentcontinuesthat had trial counselraised an
adequateprovocationdefenseproperly,he could have argued more strenuouslyto the jury in his closing
argumentthat they shouldfind the Defendantguilty of a lesser includedcharge of manslaughter. This claim
1 Pecuniarygain.
2

Cruel, Depraved,and Heinouskilling.

Appendix 4

R. Alex Coomer
Law Clerk

RULING

Page 4

Date: March 03, 2020

Case No.: CR20031993-003

does not warrant relief because the jury found Martinez guilty of first-degree murder under both a premeditated
and a felony murder theory. Manslaughteris not a lesser included offense of felony murder. State v. Cota, 229
Ariz. 136, 150 (2012). Therefore, even if trial counsel raised and argued a provocation defense consistent with
manslaughter,and argued this theory compellinglyto acquit on the premediated murder theory, there is no
evidencethe result would have changed because the jury would not have even reached or considered guilt on a
lesser charge.
This·claim also fails for a second reason. Given the evidence presented at trial, this Court is not
persuadedthat a manslaughterinstruction was warranted because an unsubstantiatedrumor alone (i.e. mere
words) is insufficientto constitute adequateprovocation. State v. Runningeagle,176 Ariz. 59, 68 (1993). In this
case, there was no evidence of adequate provocation presented at trial, only the unsubstantiated rumor the
victim allegedlymolested a child, and, accordingly,there was no basis for this Court to provide a manslaughter
instruction.
Related to this third claim, the defense further contends trial counsel was ineffective because he did not
present admissiblebehavioraltendency evidence challengingthe premeditation element arguing Martinez's lack
of impulsecontrol. This Court cannot grant relief here either because the evidence of premeditation and
reflectionin this case was overwhelming. The evidence at trial was Martinez confined the victim in a trunk of a
vehicle, robbed his home, moved the victim to another vehicle, and announced his intentions to kill the victim
during the process. Next, Martinez beat, dragged, and stomped on the victim prior to firing a shotgun shot into
the ground near his head. Martinez then reloaded the shotgun, unsuccessfullytried to convince an accomplice
to kill the victim, and then shot the victim himself a final time ending his life. This Court is not persuaded that
there is a reasonableprobability of a different outcome at trial, even if expert evidence of lack of impulse
control by Martinez was presented. Therefore,this Court finds no basis to grant relief and this claim is denied.
The fourth issue raised is that trial counsel was ineffectivefor failing to object to an erroneous
instructionthat a hung jury would result in a life sentence during the aggravating phase. Relief is not warranted
here as Martinez suffered no prejudice. As the Arizona Supreme Court opinion explains, this particular
instructionfavored Martinez by suggestinga single holdout juror could forestall death and, as such, he could
not sufferprejudice due to this instruction. Statev. Martinez,218 Ariz. 421, 189 P.3d 348 (2008) (holding
defendantwas not prejudiced by trial court's erroneous instructionthat trial court would impose a life sentence
if jury was unable to reach a verdict in aggravationphase). Therefore,this claim is denied.
The fifth claim raised is that trial counsel was ineffective because he expressed a degree unawareness
that the F(6) cruel, heinous, or depraved aggravator is a multi-prongeddisjunctive aggravator during trial. Here,
this Court cannot say there is a reasonable probability of a different outcome at trial as to this aggravating
factor, even if, for the sake of argument, trial counsel was wholly incorrect and ignorant as to how this
aggravatingfactor operates. This offense perpetrated against the victim contained multiple levels of cruel
behavior,heinous activity, and depravity and, as such, the jury was given multiple avenues to find this
aggravatingfactor proven beyond a reasonable doubt. The evidence the jury heard as to the cruelness factor
was that the victim was bound in a vehicle for hours during a Pima County summer, tortured along the way
after his house was robbed, attacked verbally, kicked, beaten, stabbed, dragged, and shot at multiple times. As
to the depravityand heinousnessfactor, the jury heard the victim's body was set ablaze and abandoned after he
was murdered. Put another way, the evidence regarding the F(6) factor was so complete to support this

R. Alex Coomer

Appendix 5

Law Clerk

RULING

Page 5

Date: March 03, 2020

Case No.: CR20031993-003

aggravatingfactorthat no differentoutcomecould reasonablyhave been expected,even with the most educated
and savvy defenseattorneyon sentencinglaw handlingthe aggravationphase.
As to the cumulativeerror doctrine arguedby the defensethat trial counsel's mistakesas to F(6)
aggravatingfactor was just one of many errors that collectivelyrenders trial counsel ineffective,this Court
cannotgrant relief. "[T]his court does not recognizethe so-calledcumulativeerror doctrine." State v. Hughes,
193Ariz. 72, 78, 969 P.2d 1184, 1190(1998); see also State v. Ellison,213 Ariz. 116, 133 (2006). Here, there
is no legal basis to grant relief under this argumentas the cumulativeerror doctrine is not recognizedin Arizona
law outsideof the contextof prosecutorialmisconduct. For these reasons, Martinez cannotprove he suffered
prejudiceand this claim is denied.
The sixth claim presentedis that trial counselwas ineffectivefor 1) failing to realize that one of the
aggravatorsallegedwas for pecuniarygain and 2) failing to use evidenceof an alleged child molestation
perpetratedby the victim as the motive to rebut the pecuniarygain factor alleged during the aggravationphase.
As to the first argumentthat trial counselwas ineffectivebecausehe failed to realize the pecuniary aggravating
factor was alleged,this Court does acknowledgethat trial counselexpresseduncertaintyas to whether this
aggravatingfactor was allegedat trial. This uncertainty,however,was not without cause as this Court forgot to
discussthis aggravatorwith the jury during voir dire and this reasonablycould have given the impressionto
trial counselthe State was not proceedingon this particularaggravator. Nevertheless,the State did ultimately
proceedon provingthis aggravatorand defense trial counselcompetentlydefendedMartinez. Trial counsel
arguedMartinezdid not kill the victim for pecuniarygain, but instead was under the effect of drugs and argued
to this Court he was furthermotivatedby the alleged act of molestationby the victim. This Court rejectedthat
argumentand foundthat the group may have had two separatemotives for killing the victim. To the jury, trial
counselalso contendedthat Martinezwas under the influenceat the time of the offense to counterthe pecuniary
gain motive. Thejury rejectedthis argumentand found the aggravatorproven beyond a reasonabledoubt. Trial
counselalso filed a writtenmotion to preclude the pecuniarygain factor, which this Court denied. In light of
the record and argumentspresentedby trial counselduring, and after trial, this Court cannot say that either trial
counselwas deficientin his defenseof this aggravatingfactor, nor did Martinez suffer prejudice in light of the
overwhelmingevidenceunderpinningthe robbery motive. Therefore,this claim is denied.
The seventhclaim raised is that trial counselwas ineffectivefor failing to recognize,object to, and/or
correctthe allegedlymisleadingcharacterizationfrom the Prosecutorduring the aggravationphase regarding
Martinezbeing in the neighborhoodbecause the group was coming from "Cisco's BBQ". Here, this Court
cannotgrant relief. This Court cannot find that trial counsel's failure to object to a commentthe Arizona
SupremeCourtdeterminedwas "neither false nor a mischaracterization"as deficientperformance. State v.
Martinez,218 Ariz. 421, 427 (2008). Moreover,as the ArizonaSupremeCourt explained,"the police
interviewsand free talks emphasizedby Martinez on appeal do not rule out the possibilitythat Martinez,did, in
fact, intendthe alibi to refer to the crime." (emphasisadded). Id Finally, assumingfor the sake of argument
that the "Cisco's BBQ" statementwas objectionable,this Court does not find any correctionor objectionwould
have resultedin a differentoutcomeas to whether or not the jury would find this aggravatingfactor proven. For
these reasons,this claim is denied.
The eighth claim raised is that trial counselwas ineffectivefor failing to present evidencethat a
necklaceidentifiedas being stolen from the victim actuallybelongedto Martinez to rebut aggravationregarding
the F(5) pecuniarygain aggravatingfactor. Very similarto the previouslydenied claim above, the evidenceto

Appendix 6

R. Alex Coomer
Law Clerk

RULING
Page 6

Date: March 03, 2020

Case No .: CR20031993-003

support the pecuniary gain factor was so clear that this Court cannot say prejudice was suffered by Martinez,
even if trial counsel tried to and effectively rebutted the necklace allegation. Specifically, Martinez and his
accomplices, after placing the victim in a trunk of a vehicle, ransacked the victim's home a first time, returned
to interrogate the victim as to where the "stuff' and "shit" was and, then, proceeded to (re)enter his home and
steal items of value. Given this evidence supporting a robbery moti ve and the F(S) aggravator, this Court
cannot find that Martinez suffered prejudice related to the alleged ownership of the necklace during the
aggravation phase and this claim is denied.
Finally, the ninth claim raised, is that trial counsel was ineffective by dodging a defense subpoena to the
hearing regarding a Rule 24 motion for new trial. The defense argues, "trial counsel's lack of concern and even
outright hostility to Martinez's Rule 24 motion for a new trial is below prevailing professional norms and is part
of the cumulative ineffectiveness in this case." While this Court does not disagree that trial counsel may have
shown an apparent lack of concern or even outright hostility to his client, relief is not warranted here under Rule
32 because this claim is based on an event after representation had ended . At the time when trial counsel was
allegedly dodging the subpoena, he was removed from the case and Martinez was appointed new counsel. As
such, trial counsel's alleged failure to be present or to appear simply cannot be deemed to be ineffective towards
Martinez as he was not being represented at that moment. Therefore, this claim is not a claim upon which relief
can be granted and it is denied.
Conclusion

When a petitioner presents no "material issue of fact or law which would entitle the defendant to relief'
and the Court determines that "no purpose would be served by any further proceedings," summary dismissal of
a petition for post-conviction relief is appropriate. Ariz. R. Crim. P. 32.11 (a). For the reasons discussed above,
the Court finds that Petitioner Martinez has failed to present a material issue of fact or law that would entitle
him to an evidentiary hearing and failed to state a colorable claim for relief on any basis. Accordingly, IT IS
ORDERED that the petition for post-conviction relief is denied.

cc:

Erin M Carrillo, Esq.
Lacey Alexander Stover Gard, Esq.
S Jonathan Young, Esq.
Attorney General - Appeals - Tucson
Clerk of Court - Appeals
Office of Court Appointed Counsel

Appendix 7

R. Alex Coomer
Law Clerk

Supreme Court
STATE OF ARIZONA
SCOTT BALES
Chief Justice

ARIZONA STATE COURTS BUILDING
1501 WEST WASHINGTON STREET, SUITE 402
PHOENIX, ARIZONA 85007-3231
TELEPHONE: (602) 452-3396

JANET JOHNSON
Clerk of the Court

May 1, 2019

RE:

STATE OF ARIZONA v CODY JAMES MARTINEZ
Arizona Supreme Court No. CR-17-0225-PC
Pima County Superior Court No. CR20031993

GREETINGS:
The following action was taken by the Supreme Court of the State
of Arizona on April 30, 2019, in regard to the above-referenced
cause:
ORDERED: Petition for Review from Partial Denial of Rule 32
Petition for Post Conviction Relief = GRANTED only as to the
superior court’s rulings that nine claims of guilt phase and
aggravation phase ineffective assistance of counsel are
“precluded for various reasons” (the State correctly concedes
that these claims are not precluded); vacating the superior
court’s preclusion rulings as to these claims; and remanding to
the superior court to consider the claims on the merits.
FURTHER ORDERED: The State of Arizona's Cross-Petition for
Review = DENIED.
Justice Lopez did not participate in the determination of this
matter.
Janet Johnson, Clerk

Appendix 8

Arizona Supreme Court No. CR-17-0225-PC
Page 2 of 2
TO:
Lacey Stover Gard
S Jonathan Young
Erin Carrillo
Cody James Martinez, ADOC 151281, Arizona State Prison,
Florence - Eyman Complex-Browning Unit (SMU II)
Dale A Baich
Timothy R Geiger
Amy Armstrong
Hon. Danelle Liwski
Hon. Howard J Fell
Hon. Gary Harrison
tel

Appendix 9

MAY
18 2017

FILED

TONI
L.HELLON

Cl.Ff?~.SU?Ef.:ICR
COURT
ARIZONA SUPERIOR COURT, Pll\1A COUNTY

J 7 HAY18 Pf'(2: 18

HON. HOWARD FELL

!

CASE NO.

CR20031993
May 18, 2017

STATE OF ARIZONA
Plaintiff,
vs.
CODY JAMES MARTINEZ
Defendant

UNDER ADVISEMENT RULING
*** AMENDED*** UNDER ADVISEMENT RULING RE: POST-CONVICTION RELIEF (CAPTIAL
CASE)
The Court has reviewed the voluminous pleadings and exhibits, considered the testimony presented at
the evidentiary hearing and has considered the relevant case law. Several issues were presented by the Petitione r
suggesting that lead trial counsel (Richard Parrish) was ineffective and that his performance fell below
objectively reasonable standards thus prejudicing the Petitioner. (Strickland v. Washington, 466 US 668
(1984)).
The Court granted an evidentiary hearing limiting the issues to be presented as articulated in the Court's
In Chambers Ruling dated January 27, 2015. All other issues raised by the Petitioner were precluded for various
reasons.
The Court heard testimony from several witnesses presented by the Petitioner, some more compelling
than others. The State presented no witnesses but effectively cross-examined the witnesses that were presented
by the Petitioner. The most compelling witnesses were Dr. Ed French, a pharmacologist from the University of
Arizona, Diane Salvestrini (mitigation specialist), Dr. Mark Cunningham, Chris Kimminau (second chair
counsel), attorney Larry Hammond (capital litigation specialist), and the Petitioner, Cody Martinez.
Deanna Vazquez
Judicial Administrative Assistant

Appendix 10

UNDER ADVISEMENT RULING
Page 2

Date: May 18, 2017

Case No.: CR20031993

Dr. French testified concerning the effects of Rohypnol intoxication (rochas), its potency and how, in
some instances causes a paradoxical reaction and how such a reaction could cause one to become violent rather
than sedated, the desired effect of the drug. This information was not sufficiently imparted to the Jury as a
potential mitigating factor. The issue ofRohypnol intoxication was not developed by trial counsel. Similarly,
the effect of the drug as a possible reason for Petitioner's behavior during his booking process was not fully
developed, thus allowing the State to argue that his behavior during the booking process was as an example of a
non-mitigating factor.
THE COURT FINDS that Mr. Parrish's performance fell below objectively reasonable standards and
that his poor performance prejudiced the Petitioner to the extent that there is a reasonable probability that, but
for counsel's unprofessional errors, the result of the proceeding would have been different; that the death
penalty would not have been imposed by the Jury.
Diane Salvestrini testified that she spent many hours with the Petitioner as well as having developed
mitigation information by interviewing multiple witnesses. She also testified concerning a number of emails
between Mr. Parrish and herself which are part of the record and demonstrate, at least, a somewhat difficult
relationship with Mr. Parrish.
Dr. Mark Cunningham testified for several hours and informed the Court of, in his opinion, what could
have been explored as mitigation, what should have been explored and what was not sufficiently presented to
the Jury, all of which, in his opinion, would have provided sufficient information to the Jury upon which they
could have found sufficient mitigation to have rejected the death penalty. Dr. Cunningham also testified
concerning Dr. Perrin's evaluation (which he opined was insufficient) and which could have enlightened the
Jury regarding the Petitioner's mental health problems and thus could have formed a basis for mitigation .
THE COURT FINDS that Mr. Parrish's performance fell below objectively reasonable standards and
that his poor performance prejudiced the Petitioner to the extent that there is a reasonable probability that, but
Deanna Vazquez
Judicial Administrative Assistant

Appendix 11

UNDER ADVISEMENT RULING
Date: May 18, 2017

Page 3

Case No.: CR20031993

for counsel's unprofessional errors, the result of the proceeding would have been different; that the death
penalty would not have been imposed by the Jury.
The defense team provided a notebook to the Jury which summarized, without explanation and without
context, information summarizing the Petitioner's life history, some mental health information, as well as
additional information. However, both Dr. Cunningham, (and later Larry Hammond), opined that by presenting
the notebook to the Jury without explanation of the contents in any meaningful way as follows:
"The defense team, at the hearing presented an abundance of information that, if presented to the jury,
could have changed the outcome regarding the imposition of the death penalty."
THE COURT FINDS that Mr. Parrish's performance fell below objectively reasonable standards and
that his poor performance prejudiced the Petitioner to the extent that there is a reasonable probability that, but
for counsel's unprofessional errors, the result of the proceeding would have been different; that the death
penalty would not have been imposed by the Jury.
Chris Kimminau, second chair, testified that he presented the mitigation evidence and that he felt he did
a professional presentation. However, he testified that the agreement with Mr. Parrish was that Mr. Kimminau
would conduct the examination of the mitigation witnesses and the closing and the rebuttal, but that Mr. Parrish
"hijacked" the rebuttal. He testified that Mr. Parrish omitted important, informative, compelling and passionate
argument that Mr. Kimminau had held back in his closing but fully intended to present in rebuttal. Mr.
Kimminau testified that this was detrimental to the mitigation.
Mr. Kimminau testified that by Mr. Parrish presenting the rebuttal and interfering with Mr. Kimminau's
proposed presentation that Parrish's performance, under the circumstances, fell below the reasonable objective
standards and prejudiced the Petitioner. He said that Mr. Parrish's interference impaired the Jury from making a
fully informed decision regarding mitigation.

Deanna Vazguez
Judicial Administrative Assistant

Appendix 12

UNDER ADVISEMENT RULING
Page 4

Date: May 18, 2017

Case No.: CR20031993

THE COURT FINDS that Mr. Parrish's performance fell below objectively reasonable standards and
that his poor performance prejudiced the Petitioner to the extent that there is a reasonable probability that, but
for counsel's unprofessional errors, the result of the proceeding would have been different; that the death
penalty would not have been imposed by the Jury.
Information regarding Mr. Parrish's communication and visitation with the Petitioner was presented by
way of jail visitation logs as well as the testimony of the Petitioner. The logs indicated that over a two year
period, Mr. Parrish visited with the Petitioner a total of one hour and eight minutes. It was, however, established
that other members of the defense team spent considerable time with the Petitioner. It is difficult to understand
and conclude that by visiting with a client in a capital case for shortly over one hour could possibly allow a
meaningful relationship to develop between counsel and client. This was evidenced by Mr. Martinez's
testimony that he had complained regarding his relationship with Mr. Parrish and, at one time Mr. Parrish
responded by saying "I am a god in the fucking courtroom," essentially telling the Petitioner that he need not be
concerned, that Mr. Parrish had everything under control.
THE COURT FINDS that Mr. Parrish's performance fell below objectively reasonable standards and
that his poor performance prejudiced the Petitioner to the extent that there is a reasonable probability that, but
for counsel's unprofessional errors, the result of the proceeding would have been different; that the death
penalty would not have been imposed by the Jury.
Testimony was presented that Petitioner had prepared and intended to read a letter of allocution but that
Parrish, without permission, rewrote the letter which omitted expressions of remorse and a request for
forgiveness. Mr. Kimminau testified that the letter written by Mr. Parrish was detrimental to mitigation in that it
did not express what the Petitioner had intended to impart to the Jury.
THE COURT FINDS that Mr. Parrish's performance fell below objectively reasonable standards and
that his poor performance prejudiced the Petitioner to the extent that there is a reasonable probability that, but
Deanna Vazquez
Judicial Administrative Assistant

Appendix 13

UNDER ADVISEMENT RULING
Page 5

Date: May 18, 2017

Case No.: CR20031993

for counsel's unprofessional errors, the result of the proceeding would have been different; that the death
penalty would not have been imposed by the Jury.
Larry Hammond, a well-respected, well-practiced and nationally recognized capital litigation attorney
testified that a capital litigation defense attorney must have a meaningful relationship with the accused and must
be an integral part of the defense team. He said that lead counsel not only needs to understand the offense but
also the offender. He said that it is critical that there be a relationship of trust between counsel and the accused.
It was his opinion that, based upon a review of the record, Mr. Parrish had never established such a relationship.

He testified that voluntary intoxication should have been more fully explored and presented and was not
sufficiently presented to the Jury. He testified that what occurred regarding the allocution letter removed a
fundamental right given to the Petitioner and, in his opinion, was "criminal." He said that it robbed the
Petitioner of a sacrosanct/sacred right and that by rewriting the letter without permission was unethical. Mr.
Hammond also testified that based on the testimony of several witnesses, both during pre-trial interviews and
during the post-conviction proceeding, the "Cisco BBQ" should have been fully developed and would not have
had the potential detrimental effect regarding the Petitioner's alleged callousness. Mr. Hammond also testified
that Parrish's apparent lack of understanding of Dr. Perrin 1s diagnosis and his failure to effectively explain it to
the Jury fell below a reasonably objective standard.
THE COURT FINDS that Mr. Parrish's performance fell below objectively reasonable standards and
that his poor performance prejudiced the Petitioner to the extent that there is a reasonable probability that, but
for counsel's unprofessional errors, the result of the proceeding would have been different; that the death
penalty would not have been imposed by the Jury.
There was much made of the necklace that was purportedly stolen from the victim and whether that
necklace issue was a basis for the pecuniary gain aggravator. The testimony is, at best, equivocal but,
nevertheless, Mr. Hammond indicated that the defense should have tried to negate the necklace issue (the
Deanna Vazguez
Judicial Administrative Assistant

Appendix 14

UNDER ADVISEMENT RULING
Page 6

Date: May 18, 2017

Case No.: CR20031993

necklace apparently belonged to the Petitioner and was not stolen from the victim), in order to reduce the
aggravating effect as being weak and unimportant. It should be noted that Mr. Parrish, based upon a
conversation with the Court, was unaware that pecuniary gain was being alleged.
THE COURT FINDS that Mr. Parrish's performance fell below objectively reasonable standards and
that his poor performance prejudiced the Petitioner to the extent that there is a reasonable probability that, but
for counsel's unprofessional errors, the result of the proceeding would have been different; that the death
penalty would not have been imposed by the Jury.
Mr. Hammond also testified regarding "provocation. 11 He opined that provocation (alleged sexual

misconduct by the victim) was not fully presented to the Jury as the Jury may not have been adequately
informed of a potential reason for the conduct in the case. The defense did not adequately rebut the argument
that the homicide was motivated by anything other than robbery.
THE COURT FINDS that Mr. Parrish's performance fell below objectively reasonable standards and
that his poor performance prejudiced the Petitioner to the extent that there is a reasonable probability that, but
for counsel's unprofessional errors, the result of the proceeding would have been different; that the death
penalty would not have been imposed by the Jury.
The ultimate take-away from Mr. Hammond's testimony, uncontroverted by any expert that could have
been called by the State, is that "the defense team was dysfunctional II and that based on his review of all the
available information, Mr. Parrish's performance, particularly in the penalty phase of the trial, fell below an
objectively reasonable standard and significantly prejudiced the Petitioner. The Court agrees.
Based upon all the information presented to the Court, and the specific findings made above,
THE COURT FINDS that Mr. Parrish's performance, as articulated above, fell below objectively
reasonable standards and that the poor performance prejudiced the Petitioner.

Deanna Vazquez
Judicial Administrative Assistant

Appendix 15

UNDER ADVISEMENT RULING
Date: May 18, 2017

Page 7

Case No.: CR20031993

THE COURT FINDS that the confidence in the proceeding was undermined by counsel's deficient
performance.
THE COURT FURTHER FINDS, by a preponderance of the evidence, that there is a reasonable
probability that, but for counsel's unprofessional errors, the result of the proceeding would have been different ;
that the death penalty would not have been imposed by the Jury.
IT IS THEREFORE ORDERED GRANTING relief and vacating the sentence of death.
IT IS ORDERED that counsel confer and advise the Court regarding a potential retrial of the penalty
phase.

HON. HOWARD FELL

cc:

Erin M Carrillo, Esq.
Kellie L. Johnson, Esq.
Lacey Alexander Stov.er Gard, Esq.
""- Laura P Chiasson, Esq.
S Jonathan Young, Esq.
Capital Litigation Staff Attorney - Diane Alessi, Esq .
Clerk of Court - Criminal Unit
Clerk of Court - Under Advisement Clerk

Deanna Vazguez
Judicial Administrative Assistant

Appendix 16

Positive
As of: March 1, 2021 7:32 PM Z

State v. Martinez
Supreme Court of Arizona
July 25, 2008, Filed
Arizona Supreme Court No. CR-05-0507-AP
Reporter
218 Ariz. 421 *; 189 P.3d 348 **; 2008 Ariz. LEXIS 126 ***

STATE OF ARIZONA, Appellee, v. CODY
JAMES MARTINEZ, Appellant.

For Cody James Martinez: S. Jonathan Young,
LAW OFFICES OF WILLIAMSON & YOUNG
P.C., Tucson.

Subsequent History: US Supreme Court certiorari
denied by Martinez v. Arizona, 555 U.S. 998, 129
S. Ct. 494, 172 L. Ed. 2d 364, 2008 U.S. LEXIS
8083 (Nov. 3, 2008)

Judges: Michael D. Ryan, Justice.
CONCURRING: Ruth V. McGregor, Chief Justice,
Rebecca White Berch, Vice Chief Justice, Andrew
D. Hurwitz, Justice, W. Scott Bales, Justice.

Petition denied by State v. Martinez, 2021 Ariz.
LEXIS 61 (Ariz., Feb. 2, 2021)
Opinion by: Michael D. Ryan
Prior History: [***1] Pima County Superior
Court No. CR20031993. Appeal from the Superior
Court in Pima County. The Honorable Howard L.
Fell, Judge Pro Tempore.

Opinion
[**351] [*424] En Banc
RYAN, Justice

Disposition: Appeal from the Superior Court in
Pima County, Affirmed.

Counsel: For State of Arizona: TERRY
GODDARD, ARIZONA ATTORNEY GENERAL,
By: Kent E. Cattani, Chief Counsel, Capital
Litigation Section, Phoenix; Lacey Alexandra
Stover Gard, Assistant Attorney General, Tucson.

I
A1
P1 On June 12, 2003, twenty-one-year-old Cody
James Martinez, fifteen-year-old Michael Lopez,
and several other adolescents were at a friend's
Tucson home smoking marijuana. Johnathon

1 We

review the facts in the "light most favorable to sustaining the
verdict[s]." State v. Tucker (Tucker I), 205 Ariz. 157, 160 n.1, 68
P.3d 110, 113 n.1 (2003).

Appendix 17

218 Ariz. 421, *424; 189 P.3d 348, **351; 2008 Ariz. LEXIS 126, ***1

Summey-Montano [**352] [*425] arrived with
Francisco Aguilar. Aguilar was sent out with two
others to purchase rolling papers for the group.
P2 Summey-Montano described Aguilar to
Martinez [***2] as a "baller" (meaning he had
money) and suggested that they rob him. Martinez
agreed. When Aguilar returned to the house,
Martinez first engaged him in a conversation and
then punched him in the face. Martinez and
Summey-Montano began beating Aguilar, while
other members of the group went outside. Martinez
and Summey-Montano called Aguilar a child
molester. 2 Martinez directed Lopez to join in
kicking Aguilar, threatening to kill Lopez if he did
not do so. Summey-Montano pointed a shotgun at
Aguilar. Martinez took the shotgun and hit Aguilar
in the head with it. Martinez and Summey-Montano
then bound Aguilar's hands and feet. Aguilar was
crying and begging for an explanation for the
beating. Martinez and Summey-Montano took
valuables from Aguilar: Summey-Montano put on
Aguilar's necklace and took two dollars from one of
Aguilar's shoes; Martinez put Aguilar's gold
bracelet in his own pocket.
P3 Lopez and Summey-Montano then forced
Aguilar into the trunk of a car. Martinez, Lopez,
Summey-Montano, and at least one other person
got into the car. Martinez drove and SummeyMontano [***3] gave directions to Aguilar's home.
When they arrived, Martinez instructed one of the
others to watch for Aguilar's family. Martinez and
Summey-Montano entered the house and returned
with beer and liquor. Apparently dissatisfied with
the haul, Martinez demanded that Aguilar tell him
"where's the stuff; where's the shit?" - a reference to
"drugs, money, or whatever." Martinez returned to
the house and came back with a computer printer. 3
2 Martinez

claimed that Summey-Montano had told him that Aguilar
had raped Summey-Montafio's eleven-year-old cousin.
3 Martinez

was seen with women's jewelry after leaving Aguilar's
house. Fritzie Gonzalez, the woman with whom Aguilar lived, told
jurors that her house had been "turned upside down." She was
missing beer and liquor, a computer printer, jewelry, and jewelry
boxes. Gonzalez identified jewelry found on Martinez as including a

P4 When they tried to leave, Martinez could not
start the car. The group pushed the car, with
Aguilar still in the trunk, to a nearby gas station.
They put gas in the car but it still did not start. The
group pushed it to a nearby pay telephone and sat
there. Aguilar remained in the trunk.
P5 Later, an acquaintance arrived at the gas station.
Martinez spoke to this person [***4] and showed
him a bag of methamphetamine. The acquaintance
used Aguilar's mobile telephone to call Fernando
Bedoy, who arrived in a Ford Explorer. Using the
Explorer, Martinez and the others pushed their
vehicle to a side street. The car still would not start.
P6 Summey-Montano and Martinez then led
Aguilar from the trunk of the car to the cargo space
of the Explorer, keeping him covered with a
blanket. Martinez poked Aguilar with a shotgun
when Aguilar did not crawl into the Explorer fast
enough.
P7 Martinez, Bedoy, Lopez, and Summey-Montano
got into the Explorer, leaving the rest of the group
behind. Bedoy drove. After some discussion
between Summey-Montano and Martinez, Martinez
directed Bedoy to the desert. Martinez announced
he intended to kill Aguilar and anyone who tried to
stop him.
P8 As Bedoy drove, Martinez and the others were
laughing and taunting Aguilar. Summey-Montano
stabbed Aguilar in the hand with a knife and hit
him with a compact disc he claimed to have stolen
from Aguilar. He also mocked Aguilar, asking him
to name his favorite track on the disc.
P9 When the group arrived at the desert area,
Summey-Montano pulled Aguilar out of the
Explorer.
Martinez
and
Summey-Montano
[***5] kicked Aguilar. Aguilar was dragged
around the truck, making "noises of pain . . .
moaning and groaning." Martinez, SummeyMontano, and Lopez continued kicking and
stomping on Aguilar, while Aguilar begged for his
bracelet she had given Aguilar and other items that belonged to her.

Appendix 18

Page 2 of 17

218 Ariz. 421, *425; 189 P.3d 348, **352; 2008 Ariz. LEXIS 126, ***5

life. Martinez demanded he shut up and ordered
Aguilar to march into the desert at gunpoint and
then to lie down.

the jury unanimously found that Martinez murdered
Aguilar for pecuniary gain and committed the
slaying in an especially cruel, heinous, and
depraved manner. See Ariz. Rev. Stat. ("A.R.S.")
[**353] [*426] P10 Martinez fired a shot at section 13-703(F)(5), (F)(6) (Supp. 2003). At the
Aguilar that went "Wight above his head," although penalty phase, Martinez put on evidence that he had
Martinez stood directly above the victim. Martinez had a terrible childhood, that he had [***7] been
laughed about having missed. As Martinez reloaded molested as a child, and that those circumstances
the shotgun, Summey-Montaflo beat Aguilar with a led him to murder Aguilar. The jury concluded that
tire iron and stabbed him in the belly. Martinez the mitigation evidence was not sufficiently
fired again, this time hitting Aguilar in the substantial to call for leniency, determining that
collarbone area, "[a] little lower than the neck," but Martinez should be sentenced to death.
not killing him. Summey-Montano refused
Martinez's request that he finish off Aguilar, so P14 An automatic notice of appeal and an appeal
Martinez fired one more time, hitting Aguilar in the from post-trial rulings 4 were filed with this Court
neck, killing him.
under Arizona Rules of Criminal Procedure 26.15
and 31.2(b) and A.R.S. §§ 13-4031, - 4033 (2001).
P11 Martinez and Summey-Montaflo ordered We have jurisdiction under the Arizona
Lopez and Bedoy to wipe out the footprints they Constitution, Article 6, Section 5(3), and A.R.S. §§
had left. Trash was piled on Aguilar's body and 13-4031, - 4033.
Martinez lit the pile on fire. The group returned to
the Explorer and drove away.
II
P12 Moments later, a Tucson Airport Authority
police officer on patrol noticed smoke in the A
distance and the Explorer [***6] driving from that
direction and initiated a traffic stop. As the police P15 Martinez first argues that prosecutorial
cruiser and the Explorer crossed paths, Martinez misconduct warrants a new trial. This Court will
hid cocaine and methamphetamine in the vehicle in reverse a conviction for prosecutorial misconduct
which he was travelling. He told the group to tell only when "(1) misconduct is indeed present; and
police they were coming from a barbeque at (2) a reasonable likelihood exists that the
"Cisco's." He told the officer who stopped the misconduct could have affected the jury's verdict,
Explorer the same. Police detained the group. thereby denying [the] defendant a fair trial." State
Tucson firefighters, meanwhile, responded to the v. Velazquez, 216 Ariz. 300, 311, P 45, 166 P.3d
blaze and reported that a body had been found. 91, 102 (2007), cert. denied, 128 S. Ct. 2078, 170
After the body was discovered, Martinez was taken L. Ed. 2d 811 (2008) [***8] (quoting State v.
into custody and, incident to that arrest, was Anderson (Anderson II), 210 Ariz. 327, 340, P 45,
searched. Jewelry and marijuana were found in 111 P.3d 369, 382 (2005)). Martinez did not object
Martinez's possession. Liquor, drugs, and the below to any of the prosecution's allegedly
improper statements. Absent a trial objection, we
shotgun were also found in the Explorer.
review claims of prosecutorial misconduct for
B
fundamental error. Id. at P 47.
P13 In the fall of 2005, a jury found Martinez
guilty of premeditated first degree murder, felony
murder, and kidnapping. The sentencing
proceedings followed, and at the aggravation phase,

4 In

early 2006, Martinez filed a motion for new trial under Arizona
Rule of Criminal Procedure 24.1, raising many of the issues he now
advocates on appeal. The superior court denied the motion after a
hearing.

Appendix 19

Page 3 of 17

218 Ariz. 421, *426; 189 P.3d 348, **353; 2008 Ariz. LEXIS 126, ***8

P16 Fundamental error is "error going to the
foundation of the case, error that takes from the
defendant a right essential to his defense, and error
of such magnitude that the defendant could not
possibly have received a fair trial." State v.
Henderson, 210 Ariz. 561, 567, P 19, 115 P.3d 601,
607 (2005) (citation omitted). "To prevail under
this standard of review, a defendant must establish
both that fundamental [**354] [*427] error exists
and that the error in his case caused him prejudice."
Id. at P 20 (citation omitted).
1
P17 When the police stopped the Explorer,
Martinez and his companions told investigators that
they had been at a barbeque at "Cisco's." 5 The jury
heard that this cover story came from Martinez. In
closing arguments at the aggravation phase, the
prosecution told jurors that Martinez provided his
friends "a sickening excuse to offer up to the police
officers - we were at Cisco's barbecue - so
[***9] he cannot be connected with this crime."

P20 Martinez makes several additional attempts to
demonstrate prosecutorial misconduct, none of
which warrant detailed discussion. He alleges that
prosecutors falsely claimed that Martinez "joked"
about missing his first shot at Aguilar, wrongly
claimed that Martinez [***10] had been accused of
committing arson at his elementary school, and
fallaciously questioned the veracity of Martinez's
claims that he killed Aguilar because he believed
Aguilar was a child molester. All of the
prosecutors' comments are supported by evidence,
including, in some cases, evidence proffered by
Martinez himself. 6 These additional allegations,
therefore, are meritless.
B
P21 The jury returned separate verdicts finding that
Martinez
committed
felony
murder
and
premeditated murder. Martinez argues that there
was insufficient evidence to convict him of felony
murder. He does not challenge the jury's finding of
premeditated murder.

P18 Martinez claims that the prosecutor knew,
based on a series of free talks between the State and
other defendants, as well as an interview of
Martinez, that the alibi, although a fabrication, was
not a "joke" about burning Aguilar because the
reference was to another "Cisco."

P22 [***11] Because felony murder is an alternate
theory of first degree murder, State v. Tucker
(Tucker I), 205 Ariz. 157, 167, P 50, 68 P.3d 110,
120 (2003), this Court need not consider a
challenge to the sufficiency of the evidence of
felony murder when the jury also returns a separate
verdict of guilt for premeditated murder. Anderson
P19 A prosecutor is entitled to make arguments II, 210 Ariz. at 343, P 59, 111 P.3d at 385 ("In any
supported by the record. State v. Hughes, 193 Ariz. event, the jury returned separate guilty verdicts for
72, 85, P 59, 969 P.2d 1184, 1197 (1998). The both felony murder and premeditated murder as to
prosecutor's comment about the alibi was a each victim; therefore, the first-degree murder
suggestion that Martinez's reference to "Cisco" convictions would stand even absent a felony
could not credibly be called a coincidence. The murder predicate."); cf. State v. Smith (Todd), 193
police interviews and free talks emphasized by Ariz. 452, 460, PP 34-36, 974 P.2d 431, 439 (1999)
Martinez on appeal do not rule out the possibility
that Martinez did, in fact, intend the alibi to refer to
the crime. The prosecutor's statement was neither 6 For example, both Bedoy and Lopez testified that Martinez laughed
false nor a mischaracterization. There was simply about missing his first, close-range shot at Aguilar. Evidence of the
school arson allegations against him was in the records provided by
no misconduct in this instance.
Martinez to the jury. Further, the prosecutor's comments as to
2
5 Francisco

Aguilar had been called "Cisco."

Martinez's motive properly questioned the link between the alleged
motive and Martinez's own claim of having been victimized as a
child. The prosecution pointed to the absence in the same documents
of any complaint by Martinez that when he was a child he had been
the victim of molestation.

Appendix 20

Page 4 of 17

218 Ariz. 421, *427; 189 P.3d 348, **354; 2008 Ariz. LEXIS 126, ***11

(declining to address issue with premeditation
instruction because defendant failed to challenge
conviction for felony murder).
P23 We are, however, concerned about the felony
murder instruction in this case. The instruction
stated:
The crime of first degree felony murder
requires proof of the following two things:
The defendant committed or attempted to
commit a kidnapping; and
[**355] [*428]
In the course of and in
furtherance of this crime or immediate flight
from this crime, the defendant or another
person caused the death of any [***12] person.
With respect to the felony murder rule, insofar
as it provides the basis for a charge of first
degree murder, there is no requirement that the
killing occurred "while committing" or
"engaged in" the felony, or that the killing be a
part of the felony. The homicide need not have
been committed to perpetrate the felony.

[***13] Ariz. R. Crim. P. 32, were pending at the
time of Martinez's trial. Martinez sought to compel
Summey-Montaflo to testify. Summey-Montano
invoked his Fifth Amendment right against selfincrimination. The trial judge held that SummeyMontano retained that right during the pendency of
his initial post-conviction proceedings. See State v.
Rosas-Hernandez, 202 Ariz. 212, 217, P 14, 42
P.3d 1177, 1182 (App. 2002) ("[I]f a witness' Fifth
Amendment privilege survives during a direct
appeal, it also survives pending post-conviction
relief.").
P25 Martinez now claims that his Sixth
Amendment right to compel a witness to testify on
his behalf was violated by the trial court's failure to
require Summey-Montano to testify. We review the
denial of a motion to compel for an abuse of
discretion. State v. Corrales, 138 Ariz. 583, 588-89,
676 P.2d 615, 620-21 (1983).

P26 A defendant has a right under the Sixth
Amendment to compel witness testimony, but the
right is "not absolute" and will give way when the
It is enough if the felony and the killing were witness's preservation of his own Fifth Amendment
part of the same series of events.
rights would prevent him from answering relevant
(Emphasis added.) The instruction used language questions. State v. Harrod (Harrod III), 218 Ariz.
long absent from Arizona's felony murder statute. 268 268, PP 20-21, 183 P.3d 519, 527 (2008).
We have discouraged the use of this instruction P27 [***14] Citing Chavez v. Martinez, 538 U.S.
because the emphasized sentence is not an accurate 760, 123 S. Ct. 1994, 155 L. Ed. 2d 984 (2003),
description of Arizona's felony murder statute. Martinez argues that Summey-Montano enjoyed no
State v. Miles, 186 Ariz. 10, 15, 918 P.2d 1028, Fifth Amendment right to avoid testifying because
1033 (1996). Although Martinez cannot show such a right is implicated only by the government's
prejudice, the instruction does not accurately state use of, compelled testimony. Chavez stands for the
the law and we disapprove of its future use.
proposition that a person subject to interrogation
C
P24 The State granted Lopez and Bedoy
testimonial immunity as part of plea agreements
under which each was permitted to plead to
kidnapping, with a maximum sentence of twelve
years. Each testified against Martinez at trial.
Summey-Montano pleaded guilty to first degree
murder and was sentenced to life imprisonment; his
post-conviction
relief
proceedings,
see

suffers no constitutional injury from the
interrogation itself for the purpose of federal civil
rights statutes. Id. at 766 ("We fail to see how,
based on the text of the Fifth Amendment, Martinez
can allege a violation of this right, since Martinez
was never prosecuted for a crime, let alone
compelled to be a witness against himself in a
criminal case.") (plurality). We do not read Chavez
as thus requiring the government to compel defense
witnesses to testify. Rather, as we recently

Appendix 21

Page 5 of 17

218 Ariz. 421, *428; 189 P.3d 348, **355; 2008 Ariz. LEXIS 126, ***14

reiterated, when a witness has continued reason to
fear prosecution, the defendant's Sixth Amendment
right to compel that witness's testimony may be
properly limited. Harrod III, 218 Ariz. at 276, P 23,
183 P.3d at 527; see also Rosas-Hernandez, 202
Ariz. at 217, P 16, 42 P.3d at 1182 (stating that a
defendant who pleaded guilty "retained the right
not to incriminate himself during the . . . period in
which a [***15] timely initial petition for postconviction relief may be filed") (emphasis added).

P31 During jury selection, a juror asked the trial
judge about the appellate process. The judge
described the process, noting that "anybody who is
convicted of a crime has various Post-Conviction
Relief rights. In other words, they can appeal the
conviction. A higher court can review it and see if I
did anything wrong, or if I made any improper
rulings, if Mr. Martinez's constitutional rights were
violated, that kind of thing."

P32 Martinez claims that the trial judge's comments
P28 Martinez also claims that the prosecution improperly minimized the jury's role in sentencing
attempted to skew the jury's understanding of the him to death. In Caldwell v. Mississippi, 472 U.S.
circumstances of the crimes by failing to offer 320, 333, 105 S. Ct. 2633, 86 L. Ed. 2d 231 (1985),
immunity to Summey-Montano, and therefore his the Supreme Court stated that "[because] the
Fourteenth Amendment due process rights were sentence [is] subject to appellate review [only
violated. [**356] [*429] This allegation of upon] a sentence of death, the chance that an
prosecutorial misconduct is not reflected in the invitation to rely on that review will generate a bias
record below; we therefore review for fundamental toward returning a death sentence is simply too
error. Velazquez, 216 Ariz. at 311, P 47, 166 P.3d at great."
102.
P33 No Caldwell error occurred here. Caldwell
P29 "The state's refusal to grant a particular witness applies "only [***17] to certain types of
immunity does not violate a defendant's right to due comment[s] - those that mislead the jury as to its
process absent . . . a showing that the witness role in the sentencing process in a way that allows
would present clearly exculpatory evidence and that the jury to feel less responsible than it should for
the state has no strong interest in withholding the sentencing decision." Romano v. Oklahoma,
immunity." State v. Doody, 187 Ariz. 363, 376, 930 512 U.S. 1, 9, 114 S. Ct. 2004, 129 L. Ed. 2d 1
P.2d 440, 453 (App. 1996). There is no such (1994); Anderson II, 210 Ariz. at 337, P 22, 111
showing here.
P.3d at 379 (same); see also Caldwell, 472 U.S. at
343 (O'Connor, J., concurring in part and
P30 Martinez claims that the prosecution concurring in the judgment) (prosecutor's
manipulated the sentencing agreements to prevent "misleading emphasis on appellate review
co-defendant Summey-Montano from testifying to misinformed the jury . . . creating an unacceptable
the "real reason" for the murder, which was not to risk that the death penalty [may have been] meted
cover up a robbery, but to punish Aguilar for the out arbitrarily or capriciously") (quotation marks
alleged molestation of Summey-Montaflo's cousin. omitted).
But that argument is refuted by the record. The
[***16] jury heard this information. Both Lopez P34 In contrast, the trial court here properly
and Bedoy testified that Martinez knew of the explained that appellate review largely pertains to
allegations against Aguilar. 7
the court's legal decisions; further, in preliminary
instructions given shortly after the complained-of
D
statement, the court told the jury that the "decision
to impose or not impose the death penalty is made
by you, the jury, not by the Judge. Your decision to
7 To the extent that evidence of the "real motive" was relevant as
mitigation, Martinez himself told the jury in the penalty phase that sentence or not sentence the defendant to death is
this was the reason he killed Aguilar.

Appendix 22

Page 6 of 17

218 Ariz. 421, *429; 189 P.3d 348, **356; 2008 Ariz. LEXIS 126, ***17

not a recommendation. Your decision to sentence
or not sentence the defendant to death will be
binding."

rejected Martinez's factual contentions. Because the
trial court's conclusion has factual support in the
record, we defer to that ruling. 8

E

P38 In any event, the trial court committed no error
in its responses addressing the jurors' questions. As
P35 Martinez contends that he was improperly the questions and answers set out in the footnote
forced to use a [***18] peremptory challenge to indicate, there was simply nothing erroneous or
strike a juror whom the trial court should have prejudicial in the trial court's responses. 9
struck for cause. We need not address this
argument because the juror in question was not P39 For similar reasons we reject Martinez's
seated and Martinez makes no claim that any of the additional claim that the judge wrongfully failed to
jurors who decided his case should have been recognize jury confusion from the questions and to
struck for cause. See State v. Glassel, 211 Ariz. 33, clarify the jury instructions. See State v. Ramirez,
46-47, P 41, 116 P.3d 1193, 1206-07 (2005); State 178 Ariz. 116, 125-27, 871 P.2d 237, 246-48
v. Hickman, 205 Ariz. 192, 200-01, P 34-36, P40- (1994) ("[W]hen a jury asks a judge about a matter
41, 68 P.3d 418, 426-27 (2003).
on which it has received adequate instruction, the
judge may in his or her discretion refuse to answer,
F
or may refer the jury to the earlier instruction.")
P36 Defense counsel claimed at trial that he was [***21] (citation omitted). The trial court acted
unaware that the State had alleged the (F)(5) within its discretion here. It simply referred the jury
pecuniary gain aggravator. Martinez [**357] to the original instructions in two instances and in
[*430] now argues the consequences of trial
counsel's apparent lack of preparation. This issue is
not appropriate for review on direct appeal. State v.
Spreitz, 202 Ariz. 1, 3, P 9, 39 P.3d 525, 527 (2002)
("[I]neffective assistance of counsel claims are to
be brought in Rule 32 proceedings.").
G

8 The

better practice is to make a contemporaneous record with
counsel about any jury questions and proposed responses. Cf. State v.
Mata, 125 Ariz. 233, 240-41, 609 P.2d 48, 55-56 (1980) (trial court
contacted counsel and offered opportunity to make record).
9 The

questions and answers were:
[Q] Is murder as an attempt to cover up a robbery considered a
murder for pecuniary gain?

P37 Martinez next claims that during the jury's
deliberations, the trial judge improperly answered
jury questions without notice to him or counsel.
This alleged lack of notice was a principal claim in
Martinez's motion for a new trial. At the
evidentiary hearing on that motion, members of his
defense team (but not lead counsel) and Martinez
[***19] testified that they had no knowledge, or
did not remember, that the jury had posed
questions; they also claimed that if they had known,
they would have responded. The trial judge found,
however, based on his recollection, and the
affidavit of his bailiff, that the attorneys had, in
fact, been contacted and lodged no objection to the
trial court's proposed answers. The trial court

[A] You must rely on the Court's instructions and
[***20] make your determination. No further explanation is
appropriate at this time.
[Q] B. If some jurors agree that there are mitigating
circumstances must all jurors be in agreement that a mitigating
circumstance exists. A. Must we be unamous [sic] to find for
life. [It appears from the record that Judge Fell added the letter
designations to this jury question, then answered the question
correspondingly].
[A] A. See [Instruction] # 1 re: unanimous. B. You must rely
on the instructions given. No further instructions will be
provided.
[Q] The instructions have confused some. Does the verdict
have to be unanimous for death or life? Some think only death
sentence has to be unanimous[.]
[A] Your verdict must be unanimous no matter what your
decision is.

Appendix 23

Page 7 of 17

218 Ariz. 421, *430; 189 P.3d 348, **357; 2008 Ariz. LEXIS 126, ***20

the third correctly stated the requirement that any
verdict be unanimous. The original instructions
properly noted that jurors did not have to settle on
any single mitigator in order to return a life
sentence.
H
P40 Martinez argues the trial court committed
fundamental error in instructing the jury that, if it
was unable to reach a verdict at the aggravation
phase, the judge would then impose a life sentence.
Martinez argues that this misstatement of the law 10
amounted to coercion of the verdict. Although the
State conceded at oral argument that the jury
instruction was incorrect, there was no coercion
here. Indeed, the mistaken instruction favored
Martinez by suggesting a [**358] [*431] single
holdout juror could forestall death. Cf. Mills v.
Maryland, 486 U.S. 367, 375, 108 S. Ct. 1860, 100
L. Ed. 2d 384 (1988) (death penalty arbitrary when
a holdout juror can prevent otherwise unanimous
jury from finding mitigating factor). The trial
court's misstatement of the law did not prejudice
Martinez.
I
1
P41 During the penalty phase of the sentencing
proceeding, Martinez introduced numerous
documents, including Child Protective Service
("CPS") reports, police reports, and other records.
For example, Martinez introduced documents
reporting that he had committed arson at his
elementary school, including school reports and
court records. He also introduced pages of

10 Compare

A.R.S. § 13-703.01(E) (Supp. 2007) ("If the trier of fact
unanimously finds no aggravating [***22] circumstances, the court
shall then determine whether to impose a sentence of life or natural
life on the defendant."), with id. § 13-703.01(J) ("At the aggravation
phase, if the trier of fact is a jury, the jury is unable to reach a verdict
on any of the alleged aggravating circumstances and the jury has not
found that at least one of the alleged aggravating circumstances has
been proven, the court shall dismiss the jury and shall impanel a new
jury.") (emphasis added).

disciplinary records from schools and the juvenile
justice system, as well as reports from
psychologists and psychiatrists who had
interviewed him. Martinez attempted to show that
his mother was inattentive and used drugs during
pregnancy, that he was of limited intelligence, and
that he had been sexually abused. Martinez's expert
testified that a combination [***23] of drug use,
lack of sleep, and his own unresolved feelings
about the molestation, along with Aguilar's refusal
to admit his own conduct as an alleged child
molester, likely triggered the episode that resulted
in Aguilar's death.
P42 The State's rebuttal evidence suggested that
Martinez's family life was not as bad as he claimed,
that his mother had made efforts to follow up on
counseling and control his behavior, and that he
exhibited behavior consistent with being a
psychopath. The State also argued that in all of the
evidence of prior violence by Martinez, nothing
indicated a sexual trigger and Martinez himself
never reported any sexual abuse until after a halfdozen sessions with his mental health expert in
preparation for trial. The State also pointed out that
a CPS report submitted as mitigation indicated that
a prior suspicion that Martinez had been sexually
abused had not been substantiated.
2
P43 Martinez argues that the State's efforts to rebut
his mitigation evidence in the penalty phase
violated his rights under the Sixth Amendment's
Confrontation Clause and deprived him of due
process. He objects principally to "hearsay"
testimony by juvenile probation officers regarding
[***24] his behavior, the victim impact statement
provided by Aguilar's birth mother, and the claim
he committed arson at his elementary school.
Because he did not raise these objections at trial,
we review for fundamental error. E.g., State v.
Ellison, 213 Ariz. 116, 132, P 54, 140 P.3d 899,
915 (2006), cert. denied, 127 S. Ct. 506, 166 L. Ed.
2d 377 (2006).
P44 As Martinez recognized, we rejected a similar

Appendix 24

Page 8 of 17

218 Ariz. 421, *431; 189 P.3d 348, **358; 2008 Ariz. LEXIS 126, ***24

Confrontation Clause argument in State v. McGill,
213 Ariz. 147, 160, PP 54-56, 140 P.3d 930, 943
(2006), cert. denied, 127 S. Ct. 1914, 167 L. Ed. 2d
570 (2007) (holding hearsay evidence admissible at
the penalty phase, consistent with due process,
when the "defendant knew about the statements and
had an opportunity to either explain or deny them"
and when the testimony has "sufficient indicia of
reliability to be responsible evidence") (citation
omitted). We decline Martinez's invitation to revisit
McGill. 11

adoption is immaterial to her status as a victim by
consanguinity. See A.R.S. § 13-703.01(S)(2).
J
1
P46 Martinez raises several arguments relating to
jury instructions in the penalty phase. These
arguments focus on the trial court's characterization
of the role of jurors in assessing the proper penalty.

P47 Martinez requested the following jury
P45 Martinez's assertions regarding the victim instruction about assessing mitigation evidence:
impact statement compel no different result. The
[I]n this phase, the defendant has got to present
statement, which was unsworn and not subject to
any relevant evidence which he and his
cross-examination, explained that Aguilar aspired
attorneys believe are mitigating factors which
to make something of his life and was well-loved
will persuade one or more [of you] that the
by his family. Martinez claims that Aguilar's birth
defendant shall be shown leniency and not
mother should have been subjected to crossreceive the death sentence.
examination, that the statement was false, and that
The State may also present evidence to you in
the State should have corrected it. [**359]
an attempt to demonstrate the defendant should
[*432] But victim impact evidence is not put on
not be shown leniency.
by the State, nor is cross-examination permitted or
Rather than creating the risk of an unguided
placing the victim's mother under oath necessary.
emotional response against the defendant, full
See A.R.S. § 13-4426.01 (Supp. 2007) ("[T]he
consideration of evidence
[***27] that
victim's right to be heard is exercised not as a
mitigates against the death penalty is essential
witness, the victim's statement is not subject to
if you are to give a reasoned moral response to
disclosure to the state or the defendant or
the defendant's background, character and
submission to the court[,] and the victim is not
crime.
subject to cross-examination."). 12 Finally, the fact
that the [***26] mother gave Aguilar up for P48 The trial court rejected this instruction and

11 Martinez

also argues that reports that he committed arson against
his elementary school should have been excluded on other
evidentiary grounds. His argument that Rule 404(b), Ariz. R. Evid.,
and this Court's related case law addressing the standard for
admitting other acts evidence in criminal trials should preclude
[***25] this evidence is misplaced. Section 13-703(C) (Supp. 2007)
mandates that "the prosecution . . . may present any information that
is relevant to any of the mitigating circumstances . . . regardless of its
admissibility under the rules governing admission of evidence at
criminal trials" in the penalty phase of a capital proceeding.
12 Martinez

also claims that the falsity of the victim statement is
demonstrated by the State's later "disavowal" of it. This is not an
accurate statement of the State's position. In post-trial proceedings,
the prosecution merely noted that Aguilar's mother's opinions were
her own. See A.R.S. § 13-4426.01.

offered an alternative that did not include the word
"moral"; it also precluded the defense from making
a "moral judgment" argument in its opening
statement.
P49 "A trial court's refusal to give a jury instruction
is reviewed for abuse of discretion." Anderson II,
210 Ariz. at 343, P 60, 111 P.3d at 385 (citing State
v. Bolton, 182 Ariz. 290, 309, 896 P.2d 830, 849
(1995)). The legal adequacy of an instruction,
however, is reviewed de novo. State v. Johnson,
212 Ariz. 425, 431, P 15, 133 P.3d 735, 741 (2006),
cert. denied, 127 S. Ct. 559, 166 L. Ed. 2d 415
(2006).

Appendix 25

Page 9 of 17

218 Ariz. 421, *432; 189 P.3d 348, **359; 2008 Ariz. LEXIS 126, ***27

P50 Martinez contends that the trial court erred in
"convert[ing] a moral decision into a factual
decision." He argues that the court misled the jurors
in describing their role as reaching a "reasoned"
decision, "uninfluenced by sympathy." His
argument hinges on the absence of the word
"moral" from the instructions.

involved a "moral" judgment.
2

P54 Martinez also challenges two other jury
instructions. First, he contends that the court erred
in instructing the jury that the "defendant has the
burden of proving any mitigating circumstance by a
P51 The Supreme Court has described the capital preponderance of the evidence" and that "[i]f your
sentencing decision as a "reasoned moral response" decision is that there are no mitigating
to mitigation evidence. Penry v. Lynaugh, 492 U.S. circumstances or that mitigating circumstances are
302, 328, 109 S. Ct. 2934, 106 L. Ed. 2d 256 not sufficiently substantial to call for leniency, your
(1989), [***28] abrogated on other grounds by verdict must be that the defendant be sentenced to
Atkins v. Virginia, 536 U.S. 304, 122 S. Ct. 2242, death." He claims that "[b]oth statements are
technically accurate, but they leave the impression
153 L. Ed. 2d 335 (2002).
that the defendant bears the burden of proving that
P52 The Supreme Court's use of the phrase a the mitigation is sufficiently substantial to call for
"reasoned moral response" describes the result of leniency," contrary to State ex rel. Thomas v.
individualized sentencing that appropriately Granville (Baldwin), 211 Ariz. 468, 123 P.3d 662
considers "any aspect of the defendant's character, (2005). 13
propensities or record and any of the circumstances
of the offense" relevant to determine whether the P55 Baldwin rejected the state's contention that a
defendant should be shown leniency. A.R.S. § 13- jury should be instructed that the defendant bore the
703(G); see also Kansas v. Marsh, 548 U.S. 163, burden [***30] of proving that the mitigation was
173-74, 126 S. Ct. 2516, 165 L. Ed. 2d 429 (2006) substantial enough to call for leniency, finding that
(jury must reach reasoned decision); Anderson II, neither the state nor the defendant has such a
210 Ariz. at 349, P 92, 111 P.3d at 391 (rejecting burden of proof. Id. at 472, PP 13-14, 124 P.3d at
claim that instruction that jury should not be 666. The rejected instruction dealt with the burden
"swayed by mere sentiment, conjecture, sympathy, of proof, not the burden of production. Our
passion, prejudice, public opinion, or public subsequent cases have held that the jury can
feeling" violated the Eighth Amendment). The properly be told that if it concludes that there is no
superior court here made clear to the jury that it mitigation or the mitigation is not sufficiently
should consider all possible mitigating evidence. substantial to call for leniency, a death verdict
The omission of the word "moral" from the final should result. State v. Tucker (Tucker II), 215 Ariz.
instructions did not render the [**360] [*433] 298, 318, P 74, 160 P.3d 177, 197 (2007), cert.
denied, 128 S. Ct. 296, 169 L. Ed. 2d 211 (2007);
instructions, as a whole, incorrect or misleading.
accord Velazquez, 216 Ariz. at 310, P 43, 166 P.3d
P53 Likewise, we reject Martinez's claim that the at 101 (instruction requiring a verdict of death if
court prevented him from urging the jury to employ jury unanimously finds no mitigating circumstances
"moral judgment" in his favor. As the State notes, sufficiently substantial to call for leniency proper
Martinez, explicitly asked jurors to consider the "as long as the jury is allowed to consider all
case "in [***29] accordance with thousands of relevant mitigating evidence").
years of the Judeo-Christian tradition" and, in fact,
traced that tradition from the Exodus to the Sermon
on the Mount. Consequently, Martinez was
effectively allowed to argue that a death verdict 13 The trial here occurred before this Court issued its opinion in
Baldwin.

Appendix 26

Page 10 of 17

218 Ariz. 421, *433; 189 P.3d 348, **360; 2008 Ariz. LEXIS 126, ***30

P56 Second, Martinez claims that an instruction
requiring jurors to "individually weigh . . .
mitigating circumstances against the aggravating
circumstances" and describing the manner in which
such weighing can be performed, was error. We
rejected this argument in Velazquez. 216 Ariz. at
310, P 39, 166 P.3d at 101 [***31] (noting that
term "weigh" may be used to describe juror's
decision).
K
P57 Having received a note indicating that the jury
was at an impasse, the trial judge stated in open
court, with only counsel and Martinez present, that
he was "going to bring [the jury] in and declare a
mistrial." When the jury returned, the court asked if
further deliberations would be helpful. The jurors
said yes. The court therefore dispatched the jury to
continue deliberating. Martinez now argues that the
trial had "ended," and the judge erred by allowing
further deliberation. As Martinez's brief concedes,
however, the judge "announced [the] intention to
declare a mistrial"; he never actually granted a
mistrial. Because no mistrial had been declared and
the jury indicated that further deliberations would
be helpful, the superior court did not abuse its
discretion in allowing further deliberations.
L
P58 Martinez next claims he was entitled to a jury
determination of his "defense" of mental
retardation. The Eighth Amendment bars the
execution of mentally retarded defendants. Atkins v.
Virginia, 536 U.S. 304, 321, 122 S. Ct. 2242, 153
L. Ed. 2d 335 (2002). We noted in State v. Grell
that Arizona's proceedings for determining mental
retardation operate [***32] like an affirmative
defense. 212 Ariz. 516, 522, P 26, 135 P.3d 696,
702 (2006), [**361] [*434] cert. denied, 127 S.
Ct. 2246, 167 L. Ed. 2d 1095 (2007). But our
analogy in Grell simply illustrated why the burden
of proving retardation could be placed on the
defendant; no affirmative defense was created. See
State v. Casey, 205 Ariz. 359, 362, P 10, 71 P.3d
351, 354 (2003) (explaining that the power to

create affirmative
legislature).

defenses

lies

with

the

M
P59 Martinez raises several Eighth Amendment and
statutory challenges to this Court's review of death
penalty verdicts under A.R.S. § 13-703.05. 14 "All
legal and constitutional questions are reviewed de
novo." Harrod III, 218 Ariz. at 279, P 38, 183 P.3d
at 530.
1
P60 In 2002, the legislature ended our independent
review of death penalty verdicts for murders
committed after August 1, 2002. See 2002 Ariz.
Sess. Laws, ch. 1, § 7(B) (5th Spec. Sess.); see also
A.R.S. § 13-703.04 (Supp. 2003); A.R.S. § 13703.05. Section 13-703.05 provides that this Court
now only determines whether the trier of fact
abused its discretion in finding aggravating factors
and determining that a death sentence is
appropriate.
P61 The Eighth Amendment prohibits cruel and
unusual punishment; however, the provision also
"guarantees individuals the right not to be subjected
to excessive sanctions." Roper v. Simmons, 543
U.S. 551, 560, 125 S. Ct. 1183, 161 L. Ed. 2d 1
(2005). [***34] Martinez therefore argues that this
14 We

decline to consider two of Martinez's Eighth Amendment
challenges. The first, that Martinez's sentence is disproportionate
compared to the sentences imposed upon other murderers, is settled
against him, as his counsel correctly conceded at oral argument.
Pulley v. Harris, 465 U.S. 37, 50-51, 104 S. Ct. 871, 79 L. Ed. 2d 29
(1984) ("There is . . . no basis in our cases for holding that
comparative proportionality review by an appellate court is required
in every case in which the death penalty is imposed and the
defendant requests it."); [***33] State v. Salazar, 173 Ariz. 399,
417, 844 P.2d 566, 584 (1992) (rejecting proportionality review).
The other, that the Eighth Amendment is violated as applied to his
case, is waived for lack of argument. Ariz. R. Crim. P.
31.13(c)(1)(vi) (proper argument "shall contain . . . the reasons
therefor, with citations to the authorities, statutes and parts of the
record relied on"). In any event, given that the jury properly found
aggravating circumstances making Martinez eligible for a capital
sentence, the argument is simply another way of arguing
proportionality.

Appendix 27

Page 11 of 17

218 Ariz. 421, *434; 189 P.3d 348, **361; 2008 Ariz. LEXIS 126, ***33

Court must review the propriety of death penalty
verdicts under a de novo standard, just as he claims
the Supreme Court reviews excessive fines and
punitive damages de novo.
P62 The Supreme Court, however, has never
required de novo review of death sentences; review
need only be "meaningful." Clemons v. Mississippi,
494 U.S. 738, 749, 110 S. Ct. 1441, 108 L. Ed. 2d
725 (1990). "It is a routine task of appellate courts
to decide whether the evidence supports a jury
verdict and in capital cases . . . to consider whether
the evidence is such that the sentencer could have
arrived at the death sentence that was imposed." Id.
at 748-49. De novo review of the sentencing
decision is not constitutionally required. See Jurek
v. Texas, 428 U.S. 262, 276, 96 S. Ct. 2950, 49 L.
Ed. 2d 929 (1976) (providing judicial review
enough to "promote the evenhanded, rational, and
consistent imposition of death sentences under
law").
2
P63 Martinez also argues that A.R.S § 13-4037(B)
(2001), which directs that "[u]pon an appeal . . .
from the sentence on the ground that it is excessive,
the court shall have the power to reduce the extent
or duration of the punishment imposed, if, in its
opinion . . . the punishment imposed is greater than
under [***35] the circumstances of the case ought
to be inflicted" preserves this Court's independent
review.
P64 At one time this Court purported to ground its
power for independent review of death sentences in
this provision's predecessor. State v. Richmond, 114
Ariz. 186, 196, 560 P.2d 41, 51 (1976), abrogated
in part by State v. Salazar, 173 Ariz. 399, 417, 844
P.2d 566, 584 (1992). The Court subsequently has
relied exclusively on A.R.S § 13-703.04 and its
predecessors for such authority. E.g., [**362]
[*435] Velazquez, 216 Ariz. at 313, P 58, 166 P.3d
at 104. Because the legislature expressly abolished
independent review for murders committed after
August 1, 2002, any reliance on A.R.S § 13-4037 in
the context of capital sentencing is misplaced.

N
P65 Martinez challenges both the jury's finding of
aggravators and its determination that the
mitigation evidence presented was not sufficiently
substantial to call for leniency. We review to
determine whether "the trier of fact abused its
discretion in finding aggravating circumstances and
imposing a sentence of death." A.R.S. § 13703.05(A). Consequently, "we uphold a decision if
there is any reasonable evidence in the record to
sustain it." State v. Morris, 215 Ariz. 324, 340-41,
P 77, 160 P.3d 203, 219-20 (2007), [***36] cert.
denied, 128 S. Ct. 887, 169 L. Ed. 2d 742 (2008)
(quotation marks and citation omitted).
1
P66 Under A.R.S § 13-703(F)(5), a first degree
murder is aggravated if the homicide was
committed "as consideration for the receipt, or in
expectation of the receipt, of anything of pecuniary
value." Martinez argues that the (F)(5) aggravator
was not proven as a matter of law because the State
failed to establish that "but for" his pecuniary gain
motive, the slaying would not have occurred. See
State v. Garza, 216 Ariz. 56, 68, P 52, 163 P.3d
1006, 1018 (2007), cert. denied, 128 S.Ct. 890, 169
L. Ed. 2d 743 (2008) ("To establish the (F)(5)
aggravator, 'the state must prove that the murder
would not have occurred but for the defendant's
pecuniary motive.'") (quoting State v. Ring (Ring
III), 204 Ariz. 534, 560, P 75, 65 P.3d 915, 941
(2003)). Pecuniary gain, however, need only be a
motive for the murder, not the sole motive. See
State v. Hyde, 186 Ariz 252, 280, 921 P.2d 655,
683 (1996) ("Pecuniary gain need not be the
exclusive cause for a murder."); accord State v.
Boggs, 218 Ariz. 325, 340, PP 73-74, 185 P.3d
111, 126 (2008). The notion of a "but for"
relationship merely means that "[t]he state must
establish the connection [***37] between the
murder and motive through direct or strong
circumstantial evidence." Ring III, 204 Ariz. at 560,
P 76, 65 P.3d at 941.
P67 The jury did not abuse its discretion in finding

Appendix 28

Page 12 of 17

218 Ariz. 421, *435; 189 P.3d 348, **362; 2008 Ariz. LEXIS 126, ***37

the (F)(5) aggravator here. It heard substantial
evidence that Aguilar was beaten and his jewelry
taken. The jury heard that he was ferried, while
bound, to his own home where more property was
taken and was interrogated about the location of
other property. In addition, the jury heard evidence
that Martinez agreed to "rob" Aguilar. Martinez and
his companions took steps throughout the course of
the crime to conceal Aguilar from public view:
Martinez kept him hidden in the trunk of a car and
helped ensure their broken down car was moved to
a side street before transferring Aguilar into the
Explorer, which prevented the victim from being
seen at the gas station. When Aguilar was
.conducted to the Explorer, Martinez parked the
Explorer behind the other car to obscure it from
view, and Aguilar was covered with a blanket.
Finally, Aguilar's body was burned, an attempt to
cover up the kidnapping, the robbery, and the
murder itself.

upon the victims" and "may be found when the
victim consciously experienced physical or mental
pain prior to death, and the defendant knew or
should have known that suffering would occur."
Anderson II, 210 Ariz. at 352 n.18, P 109, 111 P.3d
at 394 n.18 [***39] (quotation marks, substitution,
and citations omitted). Substantial evidence
supports the jury's conclusion that the killing was
"especially cruel." Martinez was a major participant
in beating, kidnapping, and slaying Aguilar. Indeed,
he pulled the trigger for the shot that ultimately
killed Aguilar.

P71 The State conclusively established that
Martinez's ongoing physical violence against
Aguilar caused Aguilar mental anguish that
Martinez knew or should have known would have
occurred. Ellison, 213 Ariz. at 142, PP 120-21, 140
P.3d at 925 (mental anguish shown when victims
"experienced significant uncertainty as to [their]
ultimate fate") (citation omitted). Because the jury
P68 These facts support the jury's finding that heard overwhelming evidence that the slaying was
Aguilar was murdered to allow [***38] Martinez especially cruel, we need not examine "whether the
to keep the stolen property and avoid capture. See jury abused its discretion in finding that the
Ellison, 213 Ariz. at 143, PP 124-25, 140 P.3d at murders were also heinous or depraved." Morris,
926 (record indicated that the defendant's "motive 215 Ariz. at 341, P 80, 160 P.3d at 220.
for the murders was to facilitate the burglary"
where the defendant went to the victims' house with P72 Martinez also argues that the (F)(6) aggravator
the intent to burglarize it, knew the area and the is "inapplicable" because "[e]verything that was
cruel was done by Mr. Summey-Montano." The
victims, and did not conceal identity).
record, however, is replete with evidence of
2
Martinez's cruelty and the superior court expressly
instructed the jury not to impute SummeyP69 Under A.R.S. § 13-703(F)(6), a first degree Montano's [***40] conduct to Martinez. Id. at 215
murder is aggravated when "[t]he defendant Ariz. at 337, P 55, 160 P.3d at 216 ("Jurors are
committed the offense in an especially heinous, presumed to follow the judge's instructions.").
cruel or depraved manner." "The 'heinous, cruel, or
depraved' aggravator is written in the disjunctive 3
and the state need prove only one of the three
conditions to trigger application of the aggravating P73 At the penalty phase, Martinez focused on
circumstance." Grell, 212 Ariz. at 519 n.2, P 8, 135 claims of family problems, including parental
P.3d at 699 n.2. Accordingly, "[a] finding of cruelty inattention. He also argued the more lenient
alone is sufficient to establish the F(6) aggravator." sentences given to Lopez, Bedoy, and Summey[**363] [*436] Morris, 215 Ariz. at 341, P 80, Montano were mitigating circumstances and that
Summey-Montano was more culpable. Martinez
160 P.3d at 220.
further pointed to the availability of a life sentence,
P70 "Cruelty involves the pain and distress visited his age, family ties and remorse, his impaired

Appendix 29

Page 13 of 17

218 Ariz. 421, *436; 189 P.3d 348, **363; 2008 Ariz. LEXIS 126, ***40

intelligence, and impairment from the use of drugs
and alcohol.

held that, generally, any fact that increased a
defendant's sentence beyond [**364] [*437] a
"statutory [***42] maximum" must be proved to
P74 On appeal, however, Martinez focuses almost the jury beyond a reasonable doubt. 542 U.S. 296,
entirely on his contention that the evidence 301-05, 124 S. Ct. 2531, 159 L. Ed. 2d 403 (2004).
presented to the jury showed that the victim had Martinez now claims his aggravated sentence for
committed "contributory conduct" and that kidnapping was error.
Martinez, because he claimed to have been abused
as a child, could not control himself when he was P79 Because Martinez did not object, we review
informed of Aguilar's alleged molestation of this claim for fundamental error and require that the
Summey-Montano's cousin.
"defendant . . . establish . . . that fundamental error
exists and that the error in his case caused him
P75 Martinez's attack on the victim's supposed prejudice." Henderson, 210 Ariz. at 567, PP 19-20,
conduct is not a compelling mitigating factor. 115 P.3d at 607 (citation omitted).
Moreover, much of Martinez's argument is not
supported by the record. The very foundation of the P80 The State argues that no reasonable jury could
claim - that Martinez was himself sexually abused - fail to find the aggravators the court identified. We
was undermined by the absence of any evidence agree. It was uncontested that the kidnapping
[***41] that Martinez himself claimed abuse until involved accomplices, a statutory aggravating
his life depended on it. The remainder of his factor. A.R.S. § 13-702(C)(4) (Supp. 2003).
mitigation evidence was unfocused and largely Likewise, overwhelming evidence demonstrates
rebutted by the State. The jury did not abuse its that Martinez and his cohorts restrained Aguilar,
discretion in finding this evidence not sufficiently took jewelry from him, and took him to his home
substantial to call for leniency.
where other property was taken from him. A.R.S. §
13-702(C)(6). On this record, the trial court did not
O
commit fundamental error in aggravating
P76 The jury also convicted Martinez of Martinez's sentence for kidnapping.
kidnapping. See A.R.S. § 13-1304(A)(3) (2001). It
found that the offense was dangerous and involved
the intentional or knowing infliction of serious
physical injury. See A.R.S. § 13-604(I) (Supp.
2003).
P77 At sentencing, the trial court found aggravating
circumstances, including the presence of
accomplices, Martinez's criminal history, his use of
drugs and alcohol, and "all factors found by the
jury that were considered by the jury as aggravating
factors including, but not limited to the pecuniary
gain" aggravator. The court sentenced Martinez to
an aggravated term of twenty years, to be served
consecutively to his death sentence. Martinez did
not object to the trial judge, rather than the jury,
finding factors to justify an aggravated sentence.
P78 In Blakely v. Washington, the Supreme Court

III
P81 Martinez raises seventeen issues to avoid
preclusion for federal review. They are presented as
in his opening brief:
1. The reasonable doubt instruction of State v.
Portillo, 182 Ariz. 592, 898 P.2d 970 (1995),
[***43] dilutes and shifts the burden of proof
in violation of the Sixth Amendment to the
United States Constitution. Rejected in Ellison,
213 Ariz. at 133, P 63, 140 P.3d at 916.
2. The (F)(5) pecuniary gain aggravator is
unconstitutionally overbroad and fails to
narrow in violation of Arave v. Creech, 507
U.S. 463, 113 S. Ct. 1534, 123 L. Ed. 2d 188
(1993), and the Eighth Amendment to the

Appendix 30

Page 14 of 17

218 Ariz. 421, *437; 189 P.3d 348, **364; 2008 Ariz. LEXIS 126, ***43

United States Constitution. Rejected in State v.
Greenway, 170 Ariz. 155, 163, 823 P.2d 22, 30
(1991).
3. The (F)(6) cruel, heinous and depraved
aggravator is unconstitutionally vague and
overbroad because the jury does not have
enough experience or guidance to determine
when the aggravator is met. The finding of this
aggravator by a jury violates the Eighth and
Fourteenth Amendments to the United States
Constitution because it does not sufficiently
place limits on the discretion of the sentencing
body, the jury, which has no narrowing
constructions to draw from and give substance
to the otherwise facially vague law. Rejected in
State v. Cromwell, 211 Ariz. 181, 188-90, PP
40-45, 119 P.3d 448, 455-57 (2005).
4. Arizona's death penalty statute creates an
unconstitutional presumption of death and
impermissibly shifts to him the burden of
proving [***44] that mitigation is sufficiently
substantial to call for leniency in violation the
Eighth and Fourteenth Amendments to the
United States Constitution and Article 2,
Section 15, of the Arizona Constitution.
Rejected in Baldwin, 211 Ariz. at 471-72, PP 917, 123 P.3d 665-66.
5. The death penalty is cruel and unusual under
any circumstances and violates the Eighth and
Fourteenth Amendments to the United States
Constitution and Article 2, Section 15, of the
Arizona Constitution. Rejected in Gregg v.
Georgia, 428 U.S. 153, 186-87, 96 S. Ct. 2909,
49 L. Ed. 2d 859 (1976); State v. Harrod, 200
Ariz. 309, 320, P 59, 26 P.3d 492, 503 (2001),
judgment vacated on other grounds by Harrod
v. Arizona, 536 U.S. 953, 122 S. Ct. 2653, 153
L. Ed. 2d 830 (2002).
6. Execution by lethal injection is cruel and
unusual punishment in violation of the Eighth
and Fourteenth Amendments to the United
States Constitution and Article 2, Section 15, of
the Arizona Constitution. Rejected in State v.

Van Adams, 194 Ariz. 408, 422, P 55, 984 P.2d
16, 30 (1999).
7. The prosecutor's discretion to seek the death
penalty has no standards and therefore violates
the Eighth and Fourteenth Amendments to the
United States Constitution and Article 2,
Sections 1, 4, and 15, of the Arizona
Constitution. [***45] Rejected in State v.
Sansing, 200 Ariz. 347, 361, P 46, 26 P.3d
1118, 1132 (2001), judgment vacated on other
[**365] [*438] 1grounds by Sansing v.
Arizona, 536 U.S. 954, 122 S. Ct. 2654, 153 L.
Ed. 2d 830 (2002).
8. Proportionality review serves to identify
which cases are above the norm of first degree
murder, thus narrowing the class of defendants
who are eligible for the death penalty. The
absence of proportionality review of death
sentences by Arizona courts denies capital
defendants due process of law and equal
protection and amounts to cruel and unusual
punishment in violation of the Fifth, Eighth,
and Fourteenth Amendments to the United
States Constitution and Article 2, Section 15, of
the Arizona Constitution. Rejected in State v.
Gulbrandson, 184 Ariz. 46, 73, 906 P.2d 579,
606 (1995).
9. Arizona's capital sentencing scheme is
unconstitutional because it does not require the
state to prove the death penalty is appropriate
or require the jury to find beyond a reasonable
doubt that the aggravating circumstances
outweigh
the
accumulated
mitigating
circumstances. Instead, Arizona's death penalty
statute requires defendants to prove their lives
should be spared, in violation of the Fifth,
Eighth, and Fourteenth Amendments to the
United States Constitution [***46] and Article
2, Section 15, of the Arizona Constitution.
Rejected in State v. Fulminante, 161 Ariz. 237,
258, 778 P.2d 602, 623 (1988).
10. Section 13-703 provides no objective
standards to guide the sentencer in weighing

Appendix 31

Page 15 of 17

218 Ariz. 421, *438; 189 P.3d 348, **365; 2008 Ariz. LEXIS 126, ***46

the aggravating and mitigating circumstances
in violation of the Eighth and Fourteenth
Amendments to the United States Constitution
and Article 2, Section 15, of the Arizona
Constitution. Rejected in State v. Pandeli
(Pandeli I), 200 Ariz. 365, 382, P 90, 26 P.3d
1136, 1153 (2001), judgment vacated on other
grounds by Pandeli v. Arizona, 536 U.S. 953,
122 S. Ct. 2654, 153 L. Ed. 2d 830 (2002).
11. Arizona's death penalty scheme is
unconstitutional because it does not require the
sentencer to find beyond a reasonable doubt
that the aggravating circumstances outweigh
the accumulated mitigating circumstances in
violation of the Eighth and Fourteenth
Amendments to the United States Constitution
and Article 2, Section 15, of the Arizona
Constitution. Rejected in State v. Poyson, 198
Ariz. 70, 83, P 59, 7 P.3d 79, 92 (2000).
12. Arizona's death penalty scheme does not
sufficiently channel the sentencing jury's
discretion. Aggravating circumstances should
narrow the class of persons eligible for the
death penalty [***47] and reasonably justify
the imposition of a harsher penalty. Section 13703.01 is unconstitutional because it provides
no objective standards to guide the jury in
weighing the aggravating and mitigating
circumstances. The broad scope of Arizona's
aggravating factors encompasses nearly anyone
involved in a murder, in violation of the Eighth
and Fourteenth Amendments to the United
States Constitution and Article 2, Section 15, of
the Arizona Constitution. Rejected in Pandeli I,
200 Ariz. at 382, P 90, 26 P.3d at 1153.
13. The fact-finder in capital cases must be able
to consider all relevant mitigating evidence in
deciding whether to give the death penalty.
Woodson v. North Carolina, 428 U.S. 280,
303-04, 96 S. Ct. 2978, 49 L. Ed. 2d 944
(1976). The trial court's failure to allow the jury
to consider and give effect to all mitigating
evidence in this case by limiting its

consideration to that proven by a
preponderance
of
the
evidence
is
unconstitutional under the Eighth and
Fourteenth Amendments to the United States
Constitution and Article 2, Section 15, of the
Arizona Constitution. Rejected in McGill, 213
Ariz. at 161, P 59, 140 P.3d at 944.
14. By allowing victim impact evidence at the
penalty phase of the trial, the [***48] trial
court violated Defendant's constitutional rights
under the Fifth, Sixth, Eighth, and Fourteenth
Amendments to the United States Constitution
and Article 2, Sections 1, 4, 13, 15, 23, and 24
of the Arizona Constitution. Rejected in Lynn
v. Reinstein, 205 Ariz. 186, 191, PP 15-17, 68
P.3d 412, 417 (2003).
[**366] [*439]
15. The trial court
improperly omitted from the penalty phase jury
instructions language to the effect that the jury
may consider mercy or sympathy in deciding
the value to assign the mitigation evidence,
instead telling the jury to assign whatever value
it deemed appropriate. The court also instructed
the jury that it must not be influenced by mere
sympathy or by prejudice in determining these
facts, thus limiting the mitigation the jury could
consider in violation of the Fifth, Sixth, Eighth,
and Fourteenth Amendments to the United
States Constitution and Article 2, Sections 1, 4,
13, 15, 23, and 24 of the Arizona Constitution.
Rejected in State v. Carreon, 210 Ariz. 54, 7071, 107 P.3d 900, 916-17 (2005).
16. The death penalty is an irreversible denial
of human rights and international law. Rejected
in State v. Richmond, 136 Ariz. 312, 322, 666
P.2d 57, 67 (1983).
17. [***49] Consecutive sentences for the
felony murder conviction and the underlying
felony of kidnapping violate A.R.S. § 13-116
(2001) and the double jeopardy clause of the
Fifth Amendment to the United States
Constitution. Rejected in State v. Girdler, 138
Ariz. 482, 489, 675 P.2d 1301, 1308 (1983)

Appendix 32

Page 16 of 17

218 Ariz. 421, *439; 189 P.3d 348, **366; 2008 Ariz. LEXIS 126, ***49

(holding that consecutive punishments for
felony murder and predicate felony do not
violate double jeopardy).

IV
P82 For the forgoing reasons, we affirm Martinez's
convictions and sentences.
Michael D. Ryan, Justice
CONCURRING:
Ruth V. McGregor, Chief Justice
Rebecca White Berch, Vice Chief Justice
Andrew D. Hurwitz, Justice
W. Scott Bales, Justice
End of Document

Appendix 33

Page 17 of 17

